                        U.S. Department of Agriculture

                           Office of Inspector General
                                     Southeast Region




              Audit Report
Followup Report on the Security of Biological
  Agents at U.S. Department of Agriculture
                Laboratories




                              Report No. 50601-10-AT
                                          March 2004
Executive Summary
Followup Report on the Security of Biological Agents at U.S. Department of Agriculture
Laboratories (Audit Report No. 50601-10-AT)

Results in Brief     This report follows up a review of the security of biological agents at the
                     U.S. Department of Agriculture (USDA) laboratories presented on
                     March 29, 2002 (Audit Report No. 50099-13-At). Our objectives were to
                     (1) determine whether laboratories and agencies have addressed security,
                     inventory, and access concerns reported in our earlier report and (2) examine
                     the implementation of new policies and procedures regulating inventories and
                     biosecurity controls.

                     In our March 29, 2002, audit, “Oversight and Security of Biological Agents
                     at Laboratories Operated by the U.S. Department of Agriculture,” we found
                     inconsistent security for biological agents at USDA laboratories. Out of the
                     124 laboratories we visited, almost half needed to improve their security
                     measures. For this review, we visited 16 laboratories (at least one from each
                     agency) where we had previously identified deficiencies in the biosecurity
                     areas of physical security, inventory control, and unrestricted access to
                     laboratory areas. Of the 16 laboratories revisited, 4 were biosafety
                     level-3 (BSL) laboratories and 12 were non-BSL-3 (medium- and low-risk)
                     laboratories.

                     USDA’s Office of Procurement and Property Management's (OPPM) security
                     reviews had also discovered many areas needing improvement but funding
                     constraints slowed the progress of remediation.           In addition, many
                     laboratories did not inventory their biological agents and those that did often
                     did so inaccurately. Further, we found that the Department did not
                     adequately control access to biological agents. A backlog of security
                     background checks, led to researchers without security clearances gaining
                     access to biological materials. At some laboratories, scientists and
                     researchers not associated with USDA work—some not United States’
                     citizens—had ready access to units where biological agents were stored.

                     We made 10 recommendations in the prior report to help agencies improve
                     the security of biological agents (see exhibit A). We recommended, for
                     example, that the Department quickly implement policies and procedures
                     established by its task force. The agencies responded that they either have or
                     are instituting controls to bring their laboratories in compliance with the
                     Department’s new policies and procedures. Our recent review found that
                     while the Department has issued security policies and procedures for
                     BSL-3 (high-risk) facilities, the agencies have not fully implemented them
                     and the policies and procedures lack key regulatory requirements (see
                     section 2).


USDA/OIG-A/50601-10-AT                                                                      Page i
                   We also recommended that the agencies compile a comprehensive list of
                   biological agents and toxins handled or stored at their facilities. The agencies
                   responded immediately and they have obtained inventory listings from all of
                   their facilities.

                   We advised the agencies to limit access to high-risk or high-consequence
                   biological agents and suggested that the Department determine the security
                   background checks necessary for such access. Significant progress has been
                   made in controlling access to high security laboratory areas and in reducing
                   the backlog of background checks for USDA personnel working with
                   high-consequence pathogens. However, background checks are still not
                   conducted on contractors, foreign and visiting scientists, students, and
                   university personnel. Although lacking security clearances, these personnel
                   often have unlimited access to medium and low risk facilities (see section 3).

                   Even though we reached an agreement with the Animal and Plant Health
                   Inspection Service (APHIS) for a site-specific recommendation, we still have
                   a concern. We recommended in the prior report that APHIS immediately
                   evaluate the feasibility of continuing research and diagnostic activities at
                   facilities located in a strip mall. The building housing the strip mall is close
                   to other commercial businesses, and it has limited security at the entry and
                   exit points. APHIS officials assured us that all pathogens of consequence had
                   been removed but during this review a laboratory official informed us that the
                   strip mall facility housed a USDA listed agent of high-consequence [Bovine
                   spongiform encephalopathy (BSE)]. We expressed our concerns to agency
                   officials who believed that the BSE slides posed little risk but agreed that the
                   pathogens should not be at the strip mall facility. According to the laboratory
                   director, steps have been taken to prevent the incident from recurring.

                   Significant progress has been made developing biosecurity policies and
                   procedures for USDA laboratories. The agencies have taken great strides to
                   implement biosecurity policies for BSL-3 laboratories. During the followup
                   audit, many of the laboratories we visited had strengthened their controls and
                   policies governing physical inventory, materials access, and materials
                   accountability.

                   Examples of progress noted during our limited review include:

                         •   All four BSL-3 laboratories have had a site-specific risk assessment
                             conducted by Sandia National Laboratories. Based on Sandia’s
                             recommendations, they are remedying security concerns.

                         •   BSL-3 laboratories have started to implement security system
                             upgrades like fences, new doors and locks, 18-gauge expanded metal
                             fastenings for windows, and proximity card readers.


USDA/OIG-A/50601-10-AT                                                                    Page ii
                         •   There are stricter requirements for employees and visitors, and tighter
                             policies and procedures have been implemented. Only persons
                             having received the appropriate security clearance can have unlimited
                             and unsupervised access to laboratories working with high-
                             consequence pathogens.

                         •   All 16 laboratories have developed inventory lists for biological
                             agents. The four BSL-3 laboratories have requirements in place for
                             what information the inventory records should contain.

                         •   All 16 laboratories have forwarded inventory information for the
                             National Pathogen Inventory (NPI) to their agency headquarters as
                             required.

                         •   Laboratories that possessed or used listed agents and toxins have
                             reported them to APHIS as required.

                         •   No inventory discrepancies were disclosed during our fieldwork
                             at BSL-3 laboratories.

                         •   Based on our interviews with laboratory officials and limited
                             observations, all four BSL-3 laboratories have tightened their security
                             regarding visitors and foreign scientists. All personnel lacking the
                             appropriate clearance are escorted at all times while in high
                             containment areas as required.

                   We found that all USDA agencies have made a concerted effort to implement
                   biosecurity measures.     Although they are working toward complete
                   compliance with the BSL-3 manual, much remains to be done. In particular,
                   key biosecurity measures for accountable records, internal reviews, and
                   cybersecurity systems need improvement. In addition, they must continue to
                   improve their control over access to dangerous pathogens (see section 3).
                   They have, though, done well in reducing the backlog of background checks
                   for personnel with access to biological materials. With more time and more
                   specific guidance from the agencies, we believe that BSL-3 laboratories will
                   come to comply fully with the biosecurity measures in the manual.

Recommendations in Brief

                   We recommend that:

                         •   APHIS verifies that all HHS and USDA listed agents and toxins have
                             been removed from the strip mall facility.

                         •   Agencies give more specific guidance to BSL-3 laboratories about
                             interpreting and enforcing the biosecurity measures listed in the
                             BSL-3 manual.
USDA/OIG-A/50601-10-AT                                                                    Page iii
                         •   The Department update the BSL-3 manual to include requirements
                             and regulations published subsequent to the manual’s issuance.

                         •   Non-BSL-3 laboratories expedite the implementation of the
                             appropriate policies and procedures.

Agency Response    The Department agreed with the findings and recommendations in the report.
                   Specifically, APHIS' officials have verified that listed agents, in particular
                   BSE, were removed from the strip mall facility. APHIS and ARS both
                   agreed to develop internal procedures and provide more guidance to
                   laboratories' officials to comply with the biosecurity measures contained in
                   the Department's BSL-3 manual. The Department is planning to update the
                   BSL-3 manual to include regulatory requirements and to expand coverage to
                   BSL-2 laboratories with select agents and toxins. In addition, the Department
                   will expand its efforts to ensure that laboratories comply with the appropriate
                   departmental manual for security. The Department's response to the draft
                   report is included as exhibit B of the audit report.

OIG Position       We agree with the actions taken and planned by the Department in response
                   to the report's recommendations. We have accepted management decisions
                   on Recommendations Nos. 2 and 4. However, to reach management decision
                   on Recommendations Nos. 1 and 3, the Department needs to provide
                   timeframes for all planned corrective actions. Actions necessary to achieve
                   management decisions are provided in the findings and recommendations
                   section. The report was also revised to clarify the appropriateness of
                   background investigations and national security clearances.




USDA/OIG-A/50601-10-AT                                                                  Page iv
Abbreviations Used in This Report

APHIS
  Animal and Plant Health Inspection Service                                                        1
ARS
  Agricultural Research Service                                                                     1
BSE
  Bovine spongiform encephalopathy                                                                  5
BSL
  Biosafety Level                                                                                   2
BSL-3 manual
  USDA Security Policies and Procedures for Biosafety Level-3 Facilities                            2
CDC
  Centers for Disease Control and Prevention                                                        1
CFR
  Code of Federal Regulations                                                                       1
DA
  Departmental Administration                                                                       6
DM
  Departmental Manual                                                                               2
FS
  Forest Service                                                                                    1
FSIS
  Food Safety and Inspection Service                                                                1
HCP
  High Consequence Pathogens                                                                    10
HHS
  Department of Health and Human Services                                                           1
ISSP
  Information System Security Plan                                                                  9
non-BSL-3 manual
  USDA Security Policies and Procedures for Laboratories and Technical Facilities [Excluding
     Biosafety Level-3 Facilities]                                                                  2
NPI
  National Pathogen Inventory                                                                       8
OCIO
  Office of the Chief Information Officer                                                       12
OIG
  Office of Inspector General                                                                       5
OPPM
  Office of Procurement and Property Management                                                     2
Public Law 107-188
  Public Health Security and Bioterrorism Preparedness and Response Act of 2002                     1




USDA/OIG-A/50601-10-AT                                                                     Page v
RO
  Responsible Official                       9
USDA
  U.S. Department of Agriculture             1




USDA/OIG-A/50601-10-AT             Page vi
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ....................................................................................................... v

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1.            Followup on Recommendations of Prior Audit Report No. 50099-13-AT........... 4

        Finding 1             Status of Implementation ........................................................................................ 4
                                  Recommendation No. 1.................................................................................... 5

    Section 2.           Departmental Policies and Procedures Have Been Issued and Agencies are
                         Working Toward Full Implementation.................................................................... 6

        Finding 2             Further Progress Needed on the Design and Implementation of Biosecurity
                              Measures in the BSL-3 Manual and BSL-3 Security Measures.............................. 7
                                  Recommendation No. 2.................................................................................. 11
        Finding 3             The BSL-3 Manual Lacks Key Regulatory Requirements.................................... 13
                                  Recommendation No. 3.................................................................................. 16

    Section 3.           Non-BSL-3 Laboratories Have Made Progress in Improving Biosecurity
                         Measures; However, Further Improvements are Needed .................................... 17

        Finding 4             USDA Needs to Strengthen Controls Over Security of Biological Agents at
                              its Non-BSL-3 Laboratories .................................................................................. 17
                                   Recommendation No. 4.................................................................................. 21

Scope and Methodology........................................................................................................................ 23

Exhibit A – Recommendations – Audit Report No. 50099-13-At..................................................... 24
Exhibit B – Agency Response .............................................................................................................. 25




USDA/OIG-A/50601-10-AT                                                                                                                Page vii
Background and Objectives
Background                         Biological agents and toxins are of concern to both the U.S. Department of
                                   Agriculture (USDA) and the Department of Health and Human Services
                                   (HHS). Those used in USDA research and diagnostics are generally
                                   pathogenic (disease-producing) to some degree. Some of these pathogens
                                   can harm agricultural crops like citrus canker while others like Avian
                                   influenza virus can cause disease or death in animals and humans.

                                   Through its various agencies, USDA performs research or diagnostic work
                                   on animal and plant pathogens throughout the United States. The
                                   Agricultural Research Service (ARS) operates the largest number of
                                   laboratories, 243 at 113 locations, and the Forest Service (FS) operates 77 at
                                   67 locations. Other agencies, such as Animal and Plant Health Inspection
                                   Service (APHIS) and Food Safety and Inspection Service (FSIS) have fewer
                                   laboratories.

                                   On June 12, 2002, the President signed into law the Public Health Security
                                   and Bioterrorism Preparedness and Response Act of 2002 (Public
                                   Law 107-188). Title II of this law, “Enhancing Controls on Dangerous
                                   Biological Agents and Toxins,” regulates certain biological agents and
                                   toxins researched by USDA and HHS. USDA has been given primary
                                   responsibility for ensuring that APHIS implement the provisions of Public
                                   Law 107-88 while HHS is responsible for Centers for Disease Control and
                                   Prevention's (CDC) compliance.

                                   To comply with the law, APHIS issued regulations [section 7, part 331, and
                                   section 9, part 121, of the Code of Federal Regulations (CFR)], dated
                                   December 13, 2002, that governs the “Possession, Use and Transfer of
                                   Biological Agents and Toxins.” These regulations are designed to tighten
                                   security at United States laboratories where researchers work with potential
                                   bioterror agents. In order not to disrupt research or educational projects
                                   involving listed pathogens, the regulations are applied with staggered
                                   completion dates, beginning on the effective date of February 11, 2003. By
                                   November 12, 2003, every individual and entity possessing, using, or
                                   transferring any listed agent or toxin must be in full compliance with the
                                   law.

                                   The regulations include a list1 of each biological agent and each toxin that
                                   the Secretary of Agriculture determined has the potential to pose a severe
                                   threat to animal or plant health, or to animal or plant products. Section
                                   9 CFR 121.3(b) also contains the listing of overlap agents and toxins2 that
                                   have the potential to pose a severe threat to both human and animal health.

1
    7 CFR 331.3 for plant pathogens and 9 CFR 121.3 for animal pathogens.
2
    Appears on both the CDC select agent and toxin list (42 CFR 73.4) and USDA listed agents and toxins.

USDA/OIG-AUDIT/50601-10-AT                                                                                 Page 1
                                   HHS' CDC assigns each biological agent and toxin a biosafety level (BSL)
                                   from 1 to 4 that describes the increasing level of containment required to
                                   protect researchers from the pathogens. BSL-1 laboratories work with low-
                                   risk pathogens. BSL-2 laboratories work with moderate risk agents and
                                   toxins like E. coli or Salmonella. BSL-33 laboratories work with biological
                                   material that can cause lethal infections like Rift Valley Fever. BSL-4 is
                                   required for work with dangerous and exotic agents that pose a
                                   high individual risk of aerosol-transmitted laboratory infections and
                                   life-threatening disease.

                                   In our March 29, 2002, audit report, “Oversight and Security of Biological
                                   Agents at Laboratories Operated by the U.S. Department of Agriculture”
                                   (Audit Report No. 50099-13-At), we described security flaws at many
                                   USDA laboratories. The security measures for almost half of the
                                   124 laboratories we visited needed improvement. Although earlier internal
                                   security reviews had discovered deficiencies, funding constraints slowed the
                                   progress of remedial action. Also, despite requirements, many laboratories
                                   did not inventory their biological agents, and those that did often did so
                                   inaccurately.

                                   Further, we found that the Department did not adequately control access to
                                   biological agents. At some laboratories, scientists and researchers not
                                   associated with USDA work, and some not United States’ citizens, had
                                   ready access to units that stored biological agents. Due to a backlog of
                                   background checks, researchers who had not been granted security
                                   clearance were routinely granted access.

                                   The agencies covered in our March 2002 audit replied that they were
                                   responding to our recommendations.

                                   The Department has recently issued two manuals on laboratory security
                                   designed to prevent unauthorized access to USDA facilities, to curtail theft
                                   or property loss, and to deter any other acts that may cause adverse impacts
                                   on national security or the health and safety of USDA employees.4 The
                                   Department has also contracted security experts to perform risk assessments
                                   on all USDA laboratories. Sandia National Laboratories conducted risk
                                   assessments on BSL-3 laboratories and the Office of Procurement and
                                   Property Management (OPPM) is coordinating security assessment reviews
                                   for non-BSL-3 laboratories.

3
    USDA added a subsidiary category to its BSL-3 classification, BSL-3 Ag, that CDC did not. For the USDA, BSL-3 Ag recognizes
    plant and animal pathogens that pose major threats to domestic agriculture like Foot and Mouth Disease that CDC classifies as BSL-2.
4
     The Departmental Manual (DM) 9610-1, entitled, USDA Security Policies and Procedures for Biosafety Level-3 Facilities
    (BSL-3 manual), dated August 20, 2002, covers the security of pathogens held at USDA BSL-3 facilities – the Department’s highest
    risk. A DM, USDA Security Policies and Procedures for Laboratories and Technical Facilities [Excluding Biosafety Level-3 Facilities]
    (Non-BSL-3 manual), was issued on April 30, 2003, to cover facilities holding lower risk organisms.


USDA/OIG-AUDIT/50601-10-AT                                                                                                   Page 2
Objectives        The objectives of our audit were (1) to revisit a sample of USDA laboratories
                  where we found security, inventory, and access problems presented in our
                  March 29, 2002, report in order to determine whether the agencies and
                  laboratories had made significant corrections and (2) to examine the
                  implementation of new departmental policies and procedures pertaining to
                  inventories and biosecurity controls.




USDA/OIG-AUDIT/50601-10-AT                                                            Page 3
Findings and Recommendations
Section 1.   Followup on Recommendations of Prior Audit Report No. 50099-13-AT

                     During our followup visits, we found all agencies responding to the prior
                     audit’s recommendations. In our March 29, 2002, audit, “Oversight and
                     Security of Biological Agents at Laboratories Operated by the
                     U.S. Department of Agriculture,” we found inconsistent security for
                     biological agents at USDA laboratories. Out of the 124 laboratories we
                     visited, almost half needed to improve their security measures. For this
                     report, we visited 16 laboratories (at least one from each agency) that had
                     previously identified deficiencies in the biosecurity areas of physical
                     security, inventory control, and unrestricted access to laboratory. Of
                     the 16 laboratories, 4 were BSL-3 laboratories and 12 were
                     non-BSL-3 (medium- and low-risk) laboratories.

                     The initial audit assessed the extent and location of dangerous pathogens, the
                     procedures guarding against accidental or intentional release of these agents,
                     and the adequacy of security measures in place to prevent unauthorized
                     access to and removal of the agents.

                     In the initial audit, we reported (1) the security of biological agents at USDA
                     laboratories was inconsistent and needed general improvement, (2) the
                     absence of a consolidated database that would allow agency managers to
                     identify the location and risk levels of biological agents, (3) the Department
                     did not adequately control access to biological agents, and (4) the Department
                     needed to institute reporting procedures for instances of unauthorized access.


Finding 1            Status of Implementation

                     We made 10 recommendations in the initial audit to help agencies improve
                     security over biological agents (see exhibit A).          Among them, we
                     recommended that the Department quickly implement policies and
                     procedures established by its task force and that it compile a centralized
                     database of all its biological agents. In August 2002, the Department issued
                     security policies and procedures for BSL-3 facilities but the agencies have
                     not fully implemented them. Also, the policies and procedures lack key
                     regulatory requirements (see section 2). In April 2003, the Department
                     issued security policies and procedures for non-BSL-3 facilities.

                     The agencies responded that they either have controls in place or are
                     instituting controls to make their laboratories comply with the Department’s
                     new policies and procedures.



USDA/OIG-AUDIT/50601-10-AT                                                                 Page 4
                  We also recommended that the agencies compile a comprehensive list of
                  biological agents and toxins handled or stored at their facilities. The agencies
                  acted immediately and they have obtained inventory listings from all of their
                  sites.

                  We proposed that the agencies limit access to high-risk or biological agents
                  and that the Department establish the security clearance required for
                  personnel to have such access. Significant progress has been made in
                  controlling access to BSL-3 laboratory areas and in reducing the backlog of
                  background checks for USDA personnel working with dangerous pathogens.
                  However, background checks are still not conducted on contractors, foreign
                  and visiting scientists, students, and university personnel that often have
                  unlimited access to non-BSL-3 facilities (see section 3).

                  Even though we reached an agreement with APHIS for a site-specific
                  recommendation, we still have a concern. We recommended that APHIS
                  should immediately consider the issues posed by continuing research and
                  diagnostic activities at facilities located in a strip mall. The building housing
                  the strip mall is close to other commercial businesses and has limited security
                  at the entry and exit points. In response to our recommendation, APHIS
                  officials assured us that all pathogens of consequence had been removed from
                  the strip mall facility.

                  During our review, however, a laboratory official informed us that the strip
                  mall facility continued to house pathogens of high consequence. Bovine
                  spongiform encephalopathy (BSE) slides (a USDA listed agent) had been
                  returned to the strip mall site for further work. The laboratory director told us
                  that he was not aware that the slides were sent to the strip mall and he made
                  immediate arrangements to return them to the main facility. We expressed
                  our concerns to agency officials. They stated that the BSE slides posed little
                  risk but agreed that the pathogens should not be at the strip mall facility. The
                  laboratory director stated that personnel have since received training to
                  ensure that this incident does not recur.

Recommendation No. 1

                  APHIS needs to verify that all HHS and USDA listed agents and toxins have
                  been removed from the strip mall facility and report back to the Office of
                  Inspector General (OIG).

                  Agency Response. In the February 10, 2004, response, the Director of
                  Homeland Security stated, "* * * APHIS has verified via internal reviews
                  (December 2002 and October 2003) that there are no listed agents at the strip
                  mall site, in particular no * * * (BSE) slides. No discrepancies were found."

                  OIG Position. We accept management decision on this recommendation.

USDA/OIG-AUDIT/50601-10-AT                                                                Page 5
Section 2.   Departmental Policies and Procedures Have Been Issued and Agencies
             are Working Toward Full Implementation

                    Significant progress has been made since we issued our prior audit. The
                    Secretary assigned a task force to develop policies and procedures governing
                    biosecurity measures for the Department’s laboratories and facilities. The
                    task force drafted standards for the key biosecurity areas of inventory control,
                    physical security, cybersecurity, personnel suitability, and biosecurity
                    incident response.

                    The Department also took the following actions in order to address
                    biosecurity issues:

                       •   USDA-Departmental Administration (DA) contracted with Sandia
                           National Laboratories to conduct comprehensive reviews of all USDA
                           BSL-3 facilities. USDA’s OPPM is coordinating security assessment
                           reviews at non-BSL-3 laboratory facilities.

                       •   Agencies compiled consolidated databases that allow agency
                           managers to identify the extent and location of biological agents and
                           toxins at USDA laboratories. These inventories help managers
                           determine the risks associated with individual materials so they can
                           effect appropriate containment and BSL's.

                       •   On August 30, 2002, the Department issued the BSL-3 manual.

                       •   On December 13, 2002, APHIS published regulations
                           7 CFR part 331 and 9 CFR part 121 to comply with the Public Health
                           Security and Bioterrorism Preparedness and Response Act of 2002.

                       •   On April 30, 2003, the Department issued the non-BSL-3 manual.

                       •   The backlog of security clearances has been greatly reduced.
                           Agencies have prioritized personnel needing clearances. USDA-DA
                           designated OPPM to be in charge of the security clearance process.

                       •   Physical access to BSL-3 laboratory areas has been restricted.
                           Agency officials stated that all personnel without the proper clearance
                           are escorted at all times while in high containment areas.

                       •   All BSL-3 laboratories that we visited have developed biosecurity
                           incident response plans detailing the actions required by specific types
                           of incidents.




USDA/OIG-AUDIT/50601-10-AT                                                                 Page 6
Finding 2         Further Progress Needed on the Design and Implementation of
                  Biosecurity Measures in the BSL-3 Manual and BSL-3 Security
                  Measures

                  The BSL-3 manual establishes a biosecurity program that outlines “individual
                  responsibilities to deter, detect, and respond to any security threat and to
                  ensure that pathogens are not removed illegally from biocontainment
                  facilities.” While the BSL-3 manual was only recently issued and we realize
                  that it takes time to implement, the BSL-3 manual needs to be updated to help
                  laboratories adhere to the Public Health Security and Bioterrorism
                  Preparedness and Response Act of 2002. In addition, laboratory officials
                  need guidance on implementing certain provisions of the new biosecurity
                  requirements.

                  Also, agencies may need to offer site-specific guidance about interpreting and
                  enforcing the biosecurity measure requirements listed in the BSL-3 manual.
                  The Department has developed biosecurity policies and procedures for
                  BSL-3 laboratories but we found that biosecurity requirements at
                  BSL-3 laboratories have not been carried out fully because agencies have not
                  completely incorporated the requirements into their own laboratory
                  operational procedures.     As a result, USDA laboratories have not
                  implemented key measures designed to help mitigate biosecurity weaknesses.

                  We found that all agencies have made a concerted effort to address
                  biosecurity measures but much work remains to achieve full compliance. In
                  particular, key biosecurity measures pertaining to accountable records,
                  internal reviews, and cybersecurity systems still need improvement.

                  Inventory Accountability Records

                  Our review of four BSL-3 laboratories revealed that only one of the
                  laboratories had inventory records that contained each of the nine database
                  elements required by the BSL-3 manual. Scientists at the BSL-3 laboratories
                  explained that they had difficulty tracking inventories using the nine data
                  elements. Agency officials noted that they were aware of the problem of
                  inconsistent laboratory inventories. They acknowledged that compiling the
                  inventory records with the nine data elements was more difficult than they
                  had originally thought it would be. One difficulty that arose was including
                  the information for the date of change of status. Scientists often remove a
                  small or minuscule amount of a pathogen from the repository inventory to
                  start a new sample. It is extremely difficult to know the pathogen amount to
                  record on the inventory record.          Consequently, they lacked precise
                  information to include for the date of change of status.



USDA/OIG-AUDIT/50601-10-AT                                                             Page 7
                  Additional guidance will need to be given to BSL-3 laboratories to help them
                  comply with the required database format for inventory records.

                  Section 8a(1) of the BSL-3 manual requires three types of accountability
                  records for the pathogen inventory at BSL-3 laboratories. These three
                  accountability records are (1) a summary inventory at USDA agency
                  headquarters, i.e., National Pathogen Inventory (NPI); (2) a detailed
                  inventory of repository materials to be kept at the facility; and (3) material
                  accountability for experimental or working samples. Section 8a(1)(b) of the
                  BSL-3 manual requires that nine database elements be maintained for the
                  repository materials inventory. Section 8a(1)(b) also requires that “the
                  database will not only serve as a record of current inventory but will also
                  serve as a historical record of pathogen use at the facility.”

                  Inventory Controls

                  Our fieldwork determined that progress has been made with inventory
                  controls and inventory accountability records. Examples of progress relating
                  to inventory controls include:

                     •   All four BSL-3 laboratories have developed an inventory of their
                         biological agents. The four BSL-3 laboratories have requirements in
                         place for what information the inventory records should contain.

                     •   All four BSL-3 laboratories have sent the required NPI information to
                         their agency headquarters.

                     •   Scientists at all four of the BSL-3 laboratories maintained laboratory
                         notebooks for the experimental or working samples.

                     •   All four BSL-3 laboratories have reported to APHIS the listed agents
                         and toxins that they possess in their facilities.

                     •   No inventory discrepancies were disclosed during our fieldwork at the
                         four BSL-3 laboratories.

                  While policies have been developed to address inventory, agencies need to
                  interpret the requirements of the BSL-3 manual and to work with individual
                  laboratories in order to develop standard inventory methods. Agencies also
                  need to give more site-specific guidance to BSL-3 laboratory officials in the
                  area of inventory record keeping.

                  Internal Reviews

                  An integral component of the biosecurity program is a system of internal
                  reviews. Scientists working with pathogens are responsible for the accuracy
                  of electronic databases and laboratory notebook records. Scientists must
USDA/OIG-AUDIT/50601-10-AT                                                             Page 8
                  maintain detailed records of information necessary to give a complete
                  accounting of all the activities related to agents or toxins. The laboratory
                  director/responsible official (RO) must perform a physical review of these
                  material accountability records annually. This review must include a
                  reconciliation of inventory records to repository materials. The agency
                  biosafety officer is required to perform random reviews annually to ensure
                  compliance at laboratories.

                  Section 8a(3) of the BSL-3 manual states that a “* * * physical review will be
                  [conducted] at least annually. * * * The Center Director, Laboratory Director,
                  or equivalent is responsible for ensuring the physical reviews are
                  accomplished. Random reviews shall be conducted on an annual basis by the
                  agency Biosafety Officer to ensure compliance at the locations.”

                  Internal reviews by someone other than the scientists who are working with
                  the pathogens and who are responsible for keeping current inventory records
                  will help to make certain that proper chain of custody procedures are in place.
                  Our review of four BSL-3 laboratories disclosed that the scientists had
                  compiled an inventory list of the biological agents they stored or used. To
                  accomplish this, the scientists reconciled inventory records to repository
                  materials in storage areas. However, the laboratory director, RO, or biosafety
                  officer did not perform a review.

                  The Department’s manual was not clear on the type of reviews required.
                  Some laboratories did not know the types of reviews required. Other
                  laboratories were aware of the type of reviews required but did not know who
                  was supposed to perform them. Some laboratories were not sure if their
                  laboratory biosafety officer or a superordinate agency biosafety officer was to
                  carry out the random review. (The agency biosafety officer should perform
                  the random review.) The agencies need to work with BSL-3 laboratory
                  officials and should offer more specific guidance about how to interpret
                  biosecurity measures relating to internal reviews of inventory.

                  Cybersecurity Systems

                  Our review of four BSL-3 laboratories determined that progress has been
                  made with the development of cybersecurity plans. The Department realizes
                  the importance of protecting the biological agents and information about the
                  agents. From that realization have come policies and procedures in the
                  BSL-3 manual relating to cybersecurity systems. Our review found all
                  BSL - 3 laboratories developing cybersecurity plans. Once the "Information
                  System Security Plan" (ISSP) is complete, it will be sent to the laboratories
                  respective agencies for feedback and approval.

                  Section 10b(1) of the BSL-3 manual states that “each agency shall ensure that
                  all USDA information resources, including USDA information related to

USDA/OIG-AUDIT/50601-10-AT                                                              Page 9
                  high-consequence pathogens under its purview, are protected in a manner that
                  is consistent with its threats and missions at all times.” Section 10b(3) of the
                  BSL-3 manual states “each agency shall plan, budget, allocate, and execute
                  resources sufficient to ensure comprehensive implementation and
                  maintenance of that organization’s computer security program.” After
                  resources have been allocated, a cybersecurity program plan can be
                  developed. Section 10b(4) of the BSL-3 manual states “each agency shall
                  document its cybersecurity program in an ISSP.”

                  The current cybersecurity systems in place for BSL-3 laboratories do not
                  conform to the requirements of the BSL-3 manual. The BSL-3 manual
                  mandates that the cybersecurity system should only secure the USDA
                  BSL-3 facility.      For example, our review determined that two
                  BSL-3 laboratories share a cybersecurity system with outside parties. While
                  these two laboratories are developing their own stand-alone cybersecurity
                  systems, information related to high consequence pathogens (HCP) may not
                  be adequately protected. One of these two laboratories shares a cybersecurity
                  network with the U.S. Army. The laboratory is developing its own ISSP as
                  required by the BSL-3 manual. The other BSL-3 laboratory uses the same
                  cybersecurity network as a university. The research leader for this laboratory
                  stated that the cybersecurity system for the laboratory is limited to what the
                  university provides. He added that the cybersecurity system provided by the
                  university is inadequate but the university has refused to provide more
                  cybersecurity protection.

                  Requirements for a cybersecurity system have been developed since the
                  Department realized the importance of protecting information relating to
                  HCP's. However, the BSL-3 laboratories have not received adequate
                  resources to implement a cybersecurity plan. BSL-3 laboratories need more
                  specific guidance to help them develop their own systems and to implement
                  the cybersecurity policies in the BSL-3 manual.

                  Access Controls

                  Significant progress has been made at the Department level to develop
                  controls, policies, and security over access to BSL-3 laboratory areas.
                  Examples of progress seen during our fieldwork include:

                     •   The four BSL-3 laboratories we visited had tightened their security on
                         visitors and foreign scientists. We were told that all personnel
                         without the appropriate clearance are always escorted when in high
                         containment areas, as required by the manual.

                     •   The time needed to obtain security clearances has been greatly
                         reduced.    Now, agencies prioritize the employees who need
                         clearances. Only employees with the authorized clearances have

USDA/OIG-AUDIT/50601-10-AT                                                              Page 10
                           unrestricted access to BSL-3 laboratory areas. Once USDA personnel
                           have received their security clearances, they can escort visitors,
                           foreign and visiting scientists, students, and contractors, as required.

                  Section 11a of the BSL-3 manual, sets policy on human reliability
                  requirements for USDA and non-USDA personnel who work in USDA
                  laboratories including collaborators, cooperators, university personnel, and
                  contractors. Section 11a(4) states that “* * * Non-USDA personnel will be
                  escorted at all times by staff members who have a completed background
                  investigation and appropriate facility authorization.”

                  Physical Security

                  Our fieldwork determined that progress in physical security has been made at
                  BSL-3 laboratories. Security upgrades will help ensure that appropriate
                  levels of protection will exist to prevent or deter against unauthorized access,
                  theft, diversion, or loss of custody of BSL-3 pathogens. Examples of
                  progress noted during our fieldwork at BSL-3 laboratories include:

                       •   All four BSL-3 laboratories had a site-specific risk assessment
                           conducted by Sandia for their facility. All four BSL-3 laboratories
                           are implementing corrective actions based on recommendations from
                           Sandia’s assessment.

                       •   Noted improvements were security system upgrades, tighter policies
                           and procedures, and stricter requirements for employees and visitors.

                       •   Some security upgrades seen at the BSL-3 laboratories were fences,
                           new doors and locks; 18-gauge expanded metal fastened on the inside
                           of windows, and proximity card readers.

Recommendation No. 2

                  Agencies need to provide more specific guidance to BSL-3 laboratories on
                  how to interpret and enforce the biosecurity measures listed in the
                  BSL-3 manual.

                  For example:

                       •   Site-specific guidance for inventory recordkeeping.

                       •   The type and frequency of internal reviews to be conducted and by
                           whom.

                       •   Site-specific guidance for cybersecurity issues.



USDA/OIG-AUDIT/50601-10-AT                                                               Page 11
                  Agency Response. In the February 10, 2004, response, the Director of
                  Homeland Security stated,

                        * * * USDA is in the process of reviewing several inventory
                        systems to determine if any would be suitable for general use
                        in ARS laboratories. The question of how to handle the
                        removal of miniscule samples from the repository stocks will
                        require additional study.

                        * * * [ARS] agrees that internal reviews of individual
                        laboratories would improve compliance with the appropriate
                        * * * [DM] for security. It is the intention of ARS to develop
                        procedures for such reviews by April, 2004. These procedures
                        will include both reviews by the Area Office, and unscheduled
                        random reviews by components of ARS Homeland Security
                        and/or NPS. Once the policy is developed, it will be conveyed
                        to the ARS locations.

                        The ARS Office of the Chief Information Officer (OCIO) is
                        actively working with the laboratories to develop cyber
                        security plans. Requirements have already been met for
                        compliance with the Select Agent Rule for those seven
                        locations where it applies. Specific guidance for what
                        material may be placed on the web without violation of
                        Sensitive Security Information will need to come from the
                        Department OCIO. Other ID related Business Recovery
                        Plans, such as Disaster Recovery Plans, IT [information
                        technology] Contingency Plans, and Cyber Incident Response
                        Plans, involve cyber security and are being developed under a
                        Departmental contract with CRI that will provide templates by
                        the end of 2004.

                        The OIG report mentions, in several locations, the need for
                        access controls including security clearances. ARS would like
                        to point out that background investigations for public trust
                        risk positions are not the same as National Security
                        Clearances. Although all persons having access to select
                        agents and toxins are at least moderate public trust risk level
                        and require a limited background investigation, a security
                        clearance is only required if the person is handling classified
                        documents or attending meetings where classified information
                        is discussed.

                        APHIS and Sandia Laboratories collaborated on the USDA
                        Biological Reference Standard. This manual is currently in
                        the draft stage. In addition, the APHIS/ARS facility located in

USDA/OIG-AUDIT/50601-10-AT                                                           Page 12
                         Ames, Iowa, collaborated with Sandia in the development of a
                         site-specific Security Manual. A similar manual for the Plum
                         Island facility will require coordination with the Department
                         of Homeland Security, and this will commence at their
                         discretion.

                  OIG Position. We concur with the planned actions of the Department,
                  APHIS, and ARS to provide guidance to BSL-3 laboratories on the
                  implementation of biosecurity measures in the BSL-3 manual. However, in
                  order to reach management decision on this recommendation, the Department
                  needs to provide a timeframe for the selection and implementation of an
                  inventory system suitable for general use in BSL-3 laboratories.




Finding 3         The BSL-3 Manual Lacks Key Regulatory Requirements

                  We found that with the issuance of new codified regulations, the
                  BSL-3 manual needs to be updated. While much progress has been made
                  with the development and implementation of biosecurity measures for
                  BSL-3 facilities, the BSL-3 manual lacks some key regulatory requirements.
                  The new regulations establish security measures at laboratory facilities that
                  the BSL-3 manual does not address. As a result, agency officials and other
                  users who rely strictly on the BSL-3 manual may omit key biosecurity
                  measures of the regulations that are designed to mitigate biosecurity
                  weaknesses.

                  Title 7, part 331, and title 9, part 121, of the CFR, both dated
                  December 13, 2002, and effective on February 11, 2003, state that any person
                  possessing, using, or transferring any biological agent or toxin must comply
                  with the detailed regulations mentioned above.

                  Both titles specify that any person possessing, using, or transferring any
                  biological agent or toxin must have a "Biocontainment/Biosafety and
                  Security Plan." Title 7 CFR part 331.11 and Title 9 CFR part 121.12 make
                  specific references to the BSL-3 manual for guidance on security systems and
                  procedures. Since the CFR refers to the BSL-3 manual, the manual needs to
                  be compatible with the CFR. Updating the BSL-3 manual to include the key
                  regulatory requirements of the CFR will greatly aid laboratories to comply
                  with biosecurity measures.

                  In addition, the new regulations require that an individual or entity must have
                  a "Biocontainment and Security Plan" (7 CFR 331.11) or a "Biosafety and
                  Security Plan" (9 CFR 121.12). The CFR states “* * * the titles and


USDA/OIG-AUDIT/50601-10-AT                                                             Page 13
                  provisions of the plans are different because the agents listed under 7 CFR
                  331.3 do not pose a severe threat to human health and, therefore, it is
                  unnecessary to require that the plant-related plan address personnel safety
                  and health.” While the provisions may differ, both ask for security
                  requirements that are commensurate with the risk posed by the agent or toxin.
                  The CFR requires that the security plan “* * * must describe inventory
                  control procedures, personnel suitability for those individuals with access to
                  listed agents or toxins, physical security, and cybersecurity.” The regulations
                  also state that APHIS will review the "Biocontainment/Biosafety and
                  Security Plan," as applicable. Finally, to make sure that the plans continue to
                  meet an entity’s containment and security needs, it is a requirement that “* *
                  * the plan be reviewed, performance tested, and updated annually. The plan
                  must also be reviewed and revised, as necessary, after any incident.”

                  The new regulations also require that a RO be named. The regulations state
                  that the RO is the individual designated by an entity to act on its behalf. The
                  RO must have the authority and the control to ensure compliance with the
                  regulations. We found that the RO has specific responsibilities, which
                  include, but are not limited to the following:

                     •   Ensuring compliance with regulations.

                     •   Providing laboratory facilities with proper methods to contain, handle,
                         and dispose of agents and toxins.

                     •   Developing and implementing a "Biocontainment/Biosafety and
                         Security Plan."

                     •   Providing appropriate annual training in containment and security
                         procedures for all personnel.

                     •   Notifying APHIS or CDC of termination of toxin and agent users.

                     •   Allowing only approved individuals to have access to listed agents or
                         toxins.

                     •   Providing timely notice of any theft, loss, or release of a biological
                         agent or toxin.

                     •   Maintaining detailed records of information necessary to give a
                         complete accounting of all the activities related to agents or toxins.

                     •   Notifying APHIS or CDC five business days prior to discontinuing or
                         inactivating the possession, use, or transfer of the agent or toxin.

                  While the biosecurity plan described in the BSL-3 manual has the same
                  biosecurity requirements of the plans described in the CFR, our review found

USDA/OIG-AUDIT/50601-10-AT                                                             Page 14
                  that the plans mentioned in the CFR have more requirements and more
                  detailed information than the biosecurity plan. For a few examples, we found
                  that the regulations would require that the "Biocontainment/Biosafety and
                  Security Plans" provide for the following:

                     •   Inspection of all packages upon entry and exit.

                     •   Notification to RO's about loss or compromise of keys and passwords,
                         and suspicious persons or activities.

                     •   Permission for unescorted access only to individuals with the
                         appropriate clearance, during authorized hours, and only for job
                         performance.

                     •   Reviewing, performance testing, and updating processes of the
                         security system on an annual basis and after any incident.

                  The requirements of the new regulations addressing biosecurity conditions
                  are not adequately discussed in the BSL-3 manual. By referring to the
                  BSL-3 manual, the regulations setup the BSL-3 manual as a model for how
                  non-Federal possessors of biological agents and toxins should establish
                  protocols to secure their pathogens. Consequently, the provisions of the
                  BSL-3 manual may be construed as protocols, and therefore should mirror
                  the regulations as much as possible.

                  The BSL-3 manual asserts that the policies and procedures should be
                  reviewed in five years unless conditions warrant an earlier review. We found
                  that there were no provisions in the BSL-3 manual that adequately address
                  the above regulatory provisions. Consequently, we believe that it is time to
                  update the BSL-3 manual to reflect the provisions in the new regulations. A
                  unified and parallel set of regulations would further aid BSL-3 laboratories in
                  fulfilling all of the biosecurity requirements.

                  Significant progress has been made with the development of biosecurity
                  policies and procedures for USDA laboratories. The agencies have taken
                  great strides to effect the biosecurity policies for BSL-3 laboratories.
                  However, we found that the new regulations have several biosecurity
                  measures or provisions that the BSL-3 manual does not address. For
                  example, the new regulations require that any individual or entity that
                  possesses, uses, or transfers any agent or toxin must have an APHIS or CDC
                  issued certification of registration and a personnel security risk assessment by
                  the attorney general.

                  Even though USDA has taken positive steps toward improving security at
                  USDA laboratories, further actions are needed so that appropriate security
                  measures are implemented in accordance with the requirements of the Public
                  Health Security and Bioterrorism Preparedness Response Act of 2002.
USDA/OIG-AUDIT/50601-10-AT                                                              Page 15
Recommendation No. 3

                  Update the BSL-3 manual to include requirements in regulations published
                  subsequent to the manual’s issuance.

                  Agency Response. In the February 10, 2004, response, the Director of
                  Homeland Security stated, "* * *USDA is planning to revise the Policies and
                  Procedures in May of 2004 to include the appropriate CFRs for selected
                  agents and toxins, and to expand coverage to BSL-2 laboratories with select
                  agents and toxins."

                  OIG Position. We accept management decision on this recommendation.




USDA/OIG-AUDIT/50601-10-AT                                                         Page 16
Section 3.             Non-BSL-3 Laboratories Have Made Progress in Improving Biosecurity
                       Measures; However, Further Improvements are Needed

                                     During our followup review we visited a total of 16 laboratories
                                     (4 BSL-3 laboratories and 12 non-BSL-3 laboratories). These laboratories
                                     were selected for review because our prior audit disclosed concerns about
                                     their physical security, inventory controls, and access supervision. Overall
                                     we noted that the 16 laboratories have made progress toward improving
                                     biosecurity measures, however further improvements are needed.


Finding 4                            USDA Needs to Strengthen Controls Over Security of Biological
                                     Agents at its Non-BSL-3 Laboratories

                                     USDA needs to strengthen controls over the security of biological agents at
                                     its laboratories—especially non-BSL-3 laboratories. Our followup visits to
                                     selected USDA non-BSL-3 laboratories with prior security issues determined
                                     that they are strengthening their overall security but they must make
                                     additional improvements in the areas of physical security, materials
                                     accountability, and access by personnel entering laboratory areas to protect
                                     USDA facilities from theft of valuable equipment or intellectual property5.

                                     Physical Security

                                     Five of the 12 non-BSL-3 laboratories visited must improve physical
                                     security. Laboratory doors were still left unlocked and pathogens were kept
                                     in unlocked freezers. Several laboratory officials stated that they do not lock
                                     doors because they are not required to do so. These physical security issues
                                     make the laboratories vulnerable to theft and misuse of USDA assets. In fact,
                                     there have been three instances of theft at non-BSL-3 laboratories following
                                     the fieldwork for our prior audit. These three laboratories had unresolved
                                     security related issues that we had identified during the audit.

                                     Section 9 of the non-BSL-3 manual states, that “* * * a physical security
                                     system shall be designed according to risk assessment principles, which will
                                     evaluate targets, adversary capabilities, consequences, and vulnerabilities.”
                                     Qualified individuals who have expertise in physical security should develop
                                     the risk assessment. In addition, section 9g states that “* * * physical
                                     security systems will be tailored to address site-specific characteristics and
                                     requirements, ongoing programs, and operational needs, and to achieve
                                     acceptable protection levels using current technology in a cost-effective
                                     manner.”



5
    Intellectual property – the product or results of scientific experiments.

USDA/OIG-AUDIT/50601-10-AT                                                                                Page 17
                  Five of the 12 non-BSL-3 laboratories visited had not corrected prior physical
                  security problems. Unlocked laboratory doors and pathogens stored in
                  unlocked freezers left laboratories vulnerable, especially laboratories
                  co-located with universities. During their security assessments, OPPM also
                  identified unlocked doors and freezers as vulnerabilities that could lead to the
                  theft of USDA resources. At three laboratories, USDA property was stolen:

                     •   Two laboratories had equipment valued at approximately
                         $159,000 stolen in February 2002. Our review found that laboratory
                         doors were still being left unlocked. OPPM had called attention to the
                         threat of valuable laboratory equipment being stolen due to unlocked
                         and unoccupied laboratories. OPPM recommended locking doors to
                         unoccupied laboratories. Equipment can be just as valuable to a
                         terrorist as biological agents themselves so it should be protected and
                         secured against theft.

                     •   OPPM identified unauthorized access and theft of government
                         property as a threat at one laboratory because of a lack of distinction
                         between authorized and unauthorized personnel. Shared space with
                         universities leaves laboratories vulnerable. The laboratory shares
                         space with a university and although only minor equipment has been
                         stolen to this point (calculators), other USDA assets like equipment
                         valued at approximately $250,000 and pathogens are in jeopardy.
                         Freezers containing pathogens were left unlocked and employees did
                         not wear identification badges. While co-located facilities are not bad
                         situations, having inadequate security measures in place leads to
                         unrestricted access and avoidable vulnerabilities.

                  We made recommendations in the prior audit to lock doors and freezers at
                  non-BSL-3 laboratories.     Security upgrades need to be made at
                  non-BSL-3 laboratories to adequately protect USDA resources.
                  Implementation of the physical security procedures required in the recently
                  published DM for non-BSL-3 facilities should help to prevent theft of USDA
                  property.

                  Materials Accountability

                  While progress was observed for inventory and materials accountability
                  controls, there remain weaknesses with inventory controls at
                  non-BSL-3 laboratories. Prior to April 30, 2003, inventory controls were not
                  required for non-BSL-3 facilities. We reported in the prior audit that not all
                  USDA laboratories kept inventories and that those laboratories that had
                  inventories did not keep them current. In addition, not all existing
                  inventories were accurate. While our followup visits found that individual
                  laboratories at non-BSL-3 facilities did keep inventories of biological agents
                  they stored, these inventories were still not kept current.

USDA/OIG-AUDIT/50601-10-AT                                                              Page 18
                  Section 8a(1) of the non-BSL-3 manual requires laboratories to maintain
                  three types of material accountability records for pathogens. The three
                  accountability records are: (1) a summary inventory at USDA agency
                  headquarters (i.e., National Pathogen Inventory System), (2) a detailed
                  inventory of repository materials to be kept at the facility, and (3) materials
                  accountability for experimental or working stocks. Section 8a(1) of the
                  non-BSL-3 manual states, “The objective of maintaining such records is to
                  ensure that the agency or equivalent is aware which pathogens are present, or
                  have been present in its facilities, to ensure the accountability of scientists for
                  the pathogens they store and use, and to be aware of the final disposition of
                  pathogens, including destruction or shipping to another facility.”

                  In addition, the non-BSL-3 manual makes several references to current
                  inventory records. Section 8a(1)(b) of the manual states, “Each USDA
                  facility that stores or uses any pathogen must maintain a current detailed
                  inventory * * * Each facility will maintain a current master database
                  reflecting the cumulative pathogens of all management units at the facility.
                  The database will not only serve as a record of current inventory but will also
                  serve as a historical record of pathogens used at the facility.”

                  We reported in the prior report that USDA needs a consolidated database to
                  monitor biological agents. We noted that not all laboratories kept inventories
                  and those that had inventories did not keep them current or in some cases
                  accurate. Many of the laboratories we visited during the followup audit had
                  made significant progress toward strengthening controls and policies over
                  inventory materials accountability. Examples of improvement ascertained
                  during this current audit’s review for materials accountability include:

                     •   All 12 non-BSL-3 laboratories have developed inventory lists for
                         biological agents.

                     •   All 12 non-BSL-3 laboratories have forwarded inventory information
                         for the NPI to their agency headquarters, as required.

                     •   All non-BSL-3 laboratories that possessed or used listed agents and
                         toxins have reported them to APHIS, as required.

                  However, we did find inventory discrepancies at several of the
                  non-BSL-3 facilities. Non-BSL-3 laboratories were not updating their
                  records to reflect the current inventory on hand. Examples of inventory
                  discrepancies include:

                     •   One laboratory’s inventory listed eight vials of a pathogen but only
                         seven were found in the freezer. The research leader stated that the
                         vial had just been used up and the inventory list had not been updated
                         to reflect the recent use.

USDA/OIG-AUDIT/50601-10-AT                                                                Page 19
                     •   At another facility, inventory items were intentionally left off the list
                         of pathogens sent to the agency. These items were an archived
                         collection that had been passed down from other scientists. The
                         laboratory received clarification from its headquarters and it plans to
                         correct the oversight by sorting through the collection and either
                         entering the samples into the inventory list or destroying them.

                     •   At one laboratory, we found two vials of a pathogen that were in the
                         freezer but the inventory list reported that all vials of the pathogen
                         had been destroyed in 1996. The research leader stated that all of the
                         vials should have been destroyed and he could not explain why the
                         vials were still in the freezer. He had the administrator of the
                         pathogen collection pull up a list of the pathogen on his computer.
                         The database showed that all vials of the pathogen were destroyed in
                         1996. The vials were immediately destroyed.

                  Implementation of inventory control procedures required in the recently
                  published DM for non-BSL-3 facilities should help to prevent inventory
                  discrepancies.

                  Access Controls

                  Officials did not always restrict access to non-BSL-3 laboratories or to the
                  potentially dangerous biological agents and valuable equipment stored in
                  them. At many non-BSL-3 laboratories, individuals not associated with
                  USDA research and diagnostic activities could enter parts of the laboratories
                  where there were biological agent and equipment. Also, non-USDA
                  personnel who are associated with laboratory activities but should not have
                  access to biological material (e.g., contractors, personnel from universities,
                  and visiting and foreign scientists) continue to have access to pathogen
                  storage areas. With unrestricted access, unauthorized personnel having
                  knowledge of a laboratory’s inventory could remove a biological agent or
                  piece of equipment and place it in a terrorist’s hands long before the theft was
                  discovered.

                  Section 11a of the BSL-3 manual, sets policy on human reliability
                  requirements for USDA and non-USDA personnel who work in USDA
                  laboratories including collaborators, cooperators, university personnel, and
                  contractors. Section 11a(4) states that “* * * Non-USDA personnel will be
                  escorted at all times by staff members who have a completed background
                  investigation and appropriate facility authorization.”

                  Examples of access problems noted during our fieldwork include:

                     •   One laboratory leased space to a private firm. The firm’s employees
                         had free and unrestricted access to USDA laboratory areas. There

USDA/OIG-AUDIT/50601-10-AT                                                              Page 20
                           were no policies in place for escorting and restricting access of
                           non-USDA personnel.

                       •   Laboratories share space with universities. OPPM found that sharing
                           space with the university caused a lack of security and that there was
                           no meaningful physical security beyond typical door locks. It is not
                           uncommon for USDA laboratories to share space with outside parties
                           but access is not restricted to only USDA employees for these
                           co-located facilities. Currently there are no guidelines laid out for
                           co-located facilities that require security measures and restricted
                           access to laboratory areas.

                       •   Contractors and foreign scientists still had unescorted and unrestricted
                           access to laboratory areas. At one laboratory, we found that
                           contractors were given proximity cards that allowed them access to
                           the entire facility at any time. A definition of “authorized” and
                           “unauthorized” personnel needs to be formulated so that
                           non-BSL-3 laboratories can limit access to appropriate personnel.

                       •   Contractors, foreign and visiting scientists, students, and university
                           personnel do not undergo background checks. In some instances,
                           these individuals have unrestricted access to laboratory areas. Without
                           an appropriate background investigation, these individuals may pose a
                           serious threat to USDA resources.

                  We conclude that the Department should implement policies and procedures
                  as soon as possible to establish consistent management of biosecurity
                  activities and to centralize control of laboratory practices for
                  non-BSL-3 laboratories. We also conclude that agencies should review their
                  security procedures for non-BSL-3 laboratories to control access to biological
                  agents and equipment and to make sure that unauthorized removal of
                  biological agents and equipment does not occur.

Recommendation No. 4

                  Expedite the implementation          of the policies and procedures for
                  non-BSL-3 laboratories.

                  Agency Response. In the February 10, 2004, response, the Director of
                  Homeland Security stated,

                           * * * USDA will expand efforts to ensure that laboratories
                           comply with the appropriate * * * [DM's] for security. The
                           status of APHIS's entire facilities is elevated to that of
                           BSL-3 since those pathogens are present. Physical security is
                           provided by locking laboratories when researchers are not
                           present in those labs. Inventories are maintained and updated
USDA/OIG-AUDIT/50601-10-AT                                                               Page 21
                         for bacterial cultures under study. Access is restricted to labs,
                         and visitors are escorted within the facilities. Employees are
                         subject to a standard clearance process used by the agency.

                         Plant Protection and Quarantine has upgraded the physical
                         security of its Beltsville, Maryland, facility. All visitors are
                         "badged" and escorted throughout restricted areas of the
                         premises.

                         Physical security assessments at all ARS laboratories have
                         been completed and physical security countermeasures will be
                         implemented as soon as additional financial resources are
                         available. Laboratories will again be reminded to follow
                         basic security procedures such as locking doors and enforcing
                         the wearing of IDs.           Public trust risk levels are
                         being determined for all positions at the remainder of the
                         Priority 1 and Priority 2 mission critical facilities. ARS is
                         currently leading the effort to publish a Federal Register
                         Notice to permit USDA to require and conduct the appropriate
                         background investigations on all persons having access to
                         USDA facilities, not just employees.

                         The FSIS Field Service and Microbial Outbreaks and Special
                         Projects laboratories use the * * * [non-BSL-3 manual] as a
                         reference for providing appropriate technical guidance at
                         FSIS non-BSL-3 laboratories.           After reviewing the
                         requirements of the USDA Policies and Procedures for
                         non-BSL-3 laboratories, FSIS determined that the Standard
                         Operating Procedures, security plans, continuation of
                         operation plans, and emergency plans in effect in the
                         non-BSL-3 Laboratories meet or exceed the requirements set
                         forth in the Policies and Procedures manual.

                  OIG Position. We concur with the planned actions of the Department
                  to expedite the implementation of policies and procedures for
                  non-BSL-3 laboratories. However, in order to reach management decision on
                  this recommendation, ARS needs to provide a timeframe for
                  (1) implementation of physical security countermeasures, as appropriate, at
                  ARS laboratories; (2) determination of public trust risk level for all positions
                  at Priority 1 and Priority 2 mission critical facilities; and (3) publication of a
                  Federal Register Notice to permit USDA to require and conduct the
                  appropriate background investigations on all person having access to USDA
                  facilities, not just employees.




USDA/OIG-AUDIT/50601-10-AT                                                               Page 22
Scope and Methodology
                  In our March 29, 2002, audit, “Oversight and Security of Biological Agents
                  at Laboratories Operated by the U.S. Department of Agriculture,” we visited
                  124 laboratories of which almost half needed to improve their security
                  measures. For this report, we conducted the audit by making unannounced
                  visits to 16 laboratories (at least one from each agency) that had previously
                  identified deficiencies in the biosecurity areas of physical security, inventory
                  control, and unrestricted access to laboratory area. Of the 16 laboratories,
                  4 were BSL-3 laboratories and 12 were non-BSL-3 (medium and low risk)
                  laboratories.      All 4 of the BSL-3 laboratories had a security
                  assessment performed by Sandia National Laboratories while 9 of the
                  12 non-BSL-3 laboratories had a security review performed by OPPM.

                  Site visits were performed from November 2002 through February 2003.

                  We performed the audit in accordance with generally accepted government
                  auditing standards. To accomplish our objectives, we used the following
                  audit steps and procedures:

                     •   Reviewed applicable laws, regulations, and guidance concerning
                         biological agents.

                     •   Reviewed the BSL-3 manual, dated August 2002, and the
                         non-BSL-3 manual, dated April 2003.

                     •   Reviewed reports of OPPM site security assessments for selected field
                         facilities.

                     •   Examined reports of Sandia National Laboratories site security
                         reviews for selected field facilities.

                     •   Interviewed laboratory and agency officials responsible for handling,
                         storing, and disposing of biological agents.

                     •   Conducted spot-checks using laboratory inventories of biological
                         agents or toxins to identify discrepancies.




USDA/OIG-AUDIT/50601-10-AT                                                              Page 23
Exhibit A – Recommendations – Audit Report No. 50099-13-At
                                                                                                                 Exhibit A – Page 1 of 1
        Recommendation




                                                                  Recommendation
        Number




                         Hasten the implementation of the policies and procedures being prepared by the Department’s
             1           biosecurity task force.
                         Direct all agencies to instruct USDA laboratories to compile a comprehensive list of biological
                         agents handled or stored at their respective facilities and to forward this list to the agency’s
                         headquarters for consolidation at the Department level. This inventory record should include all
                         laboratories, by agency, showing the biosafety level for each facility and a current inventory that
                         easily identifies all biological agents. Ensure that the inventory record is secure and readily
             2           accessible by managers at the headquarters level. Establish a date for accomplishing these tasks.
                         Based on the inventory of biological agents for each facility, each agency should immediately assess
                         the risk associated with such biological agents and determine the commensurate biosafety and
             3           biosecurity level required for such agents.
                         Evaluate the results of security reviews conducted at two of the Department’s BSL-3 laboratories
                         (laboratories E and F) and directly implement corrective actions related to security issues. Arrange
             4           security reviews for other USDA laboratories beginning with level-3 facilities.
                         Immediately assesses the feasibility of continuing current research and diagnostic activities at the
             5           facilities located in the strip mall.
                         Take immediate action to correct the deficiencies at laboratory B, including the problems with
             6           inventory of biological agents, containment procedures, and physical security.
                         Propose to the Secretary that one individual at the Department level be responsible for monitoring
             7           and reviewing the physical security at USDA laboratories to ensure adequate security.
                         Immediately review security procedures to make certain that access to high consequence biological
                         agents is controlled and limited to authorized purposes. Institute management controls to ensure that
                         unauthorized removal does not occur by restricting access to facilities and laboratories handling or
                         storing such high consequence biological agents to personnel with authorized access and appropriate
             8           identification. Track the removal and return of samples of dangerous pathogens.
                         Immediately determine the required background checks and security clearances for personnel who
                         have access to high consequence biological agents, particularly those with access to
                         level-3 laboratories. Establish a protocol for approving authorized access to such materials. Also,
             9           work with the Department to reduce the backlog of security clearances.
                         Immediately issue a notice to all laboratory facilities with high consequence biological agents that
                         they must report any improprieties or vandalism involving such materials to the agency’s
                         headquarters office, which will in turn notify the Office of Inspector General and the other relevant
             10          offices.




USDA/OIG-AUDIT/50601-10-AT                                                                                                       Page 24
Exhibit B – Agency Response
                              Exhibit B – Page 1 of 3




USDA/OIG-AUDIT/50601-10-AT                Page 25
Exhibit B – Agency Response
                              Exhibit B – Page 2 of 3




USDA/OIG-AUDIT/50601-10-AT                Page 26
Exhibit B – Agency Response
                              Exhibit B – Page 3 of 3




USDA/OIG-AUDIT/50601-10-AT                Page 27
